<html>
<title> - WHISTLEBLOWER RETALIATION AT THE HANFORD NUCLEAR SITE</title>
<body><pre>[Senate Hearing 113-370]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 113-370

         WHISTLEBLOWER RETALIATION AT THE HANFORD NUCLEAR SITE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON FINANCIAL AND
                         CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2014

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PRINTING OFFICE 

88-280 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEIKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


          SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          MICHAEL B. ENZI, Wyoming
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin

                 Margaret Daum, Majority Staff Director
                 Rachel Weaver, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1

                               WITNESSES
                        Tuesday, March 11, 2014

Bill Eckroade, Deputy Chief of Operations, Office of Health, 
  Safety and Security, U.S. Department of Energy.................     3
Matt Moury, Deputy Assistant Secretary for Safety, Security and 
  Quality Programs, Environmental Management, U.S. Department of 
  Energy.........................................................     5
James Taylor, Senior Vice President, Global Management and 
  Operations Services, URS Corporation...........................    15
Michael Graham, Principal Vice President, Bechtel National, Inc..    17

                     Alphabetical List of Witnesses

Eckroade, Bill:
    Testimony....................................................     3
    Prepared statement with attachment...........................    31
Graham, Michael:
    Testimony....................................................    17
    Prepared statement...........................................    45
Moury, Matt:
    Testimony....................................................     5
    Prepared statement...........................................    35
Taylor, James:
    Testimony....................................................    15
    Prepared statement...........................................    40

                                APPENDIX

Information submitted for the Record:
    The memorandum submitted by Mr. Eckroade.....................    33
    Information submitted by Mr. Moury...........................    49
    Statement submitted by Senator Edward J. Markey..............    50
    Statement submitted by Dr. Walter L. Tamosaitis..............    52
    Statement submitted by Tom Carpenter, Executive Director, 
      Hanford Challenge with attachment..........................    79
Responses to post-hearing questions for the Record:
    Mr. Eckroade.................................................   238
    Mr. Taylor...................................................   254
    Mr. Graham...................................................   260

 
         WHISTLEBLOWER RETALIATION AT THE HANFORD NUCLEAR SITE

                              ----------                              


                        TUESDAY, MARCH 11, 2014

                                 U.S. Senate,      
        Subcommittee on Financial and Contracting Oversight
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:12 a.m., in 
room 628, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill and Johnson.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing will now come to order.
    The waste treatment plant is a Federal nuclear facility in 
Hanford, Washington that is supposed to convert hazardous, 
highly radioactive nuclear waste into a more stable and safe 
form for permanent disposal.
    Last June, I held a hearing on contract management by the 
Department of Energy (DOE), which looked specifically at the 
waste treatment plant (WTP), at Hanford because the plant, 
which is under a design and construction construct in terms of 
how the contracts were given, has a litany of cost overruns and 
schedule delays.
    Today, however, we are here to examine another aspect of 
the plant--allegations that the Department of Energy and its 
contractors, Bechtel and URS, are engaging in retaliation 
against employees who raise concerns about the safety of the 
plant's design and construction.
    The Department of Energy has a specific nuclear safety 
policy that states, ``It is the policy of the Department of 
Energy to design, construct, operate and decommission its 
nuclear facilities in a manner that ensures adequate protection 
of workers, the public and the environment.''
    However, Federal agencies that have looked at safety issues 
at Hanford have repeatedly found key safety-related weaknesses, 
including the lack of quality assurance, safety culture and 
Federal oversight.
    Most recently, URS Manager for Environmental and Nuclear 
Safety Donna Busche has alleged that she was fired because she 
raised concerns that basic nuclear safety fundamentals had not 
been considered from the beginning of construction.
    Another official associated with the waste treatment plant, 
the Manager of waste treatment plant Research and Technology, 
Dr. Walter, Tomasaitis, who testified before this Subcommittee 
in 2011, also claims to have suffered professional damage, 
including termination, after raising major nuclear safety 
issues.
    These individuals and many more who have chosen to remain 
anonymous have brought their concerns forward to their 
employers, to DOE and to Congress.
    I do not think anyone wants to be a whistleblower. 
Reporting your colleagues, who may be your friends, for actions 
that look like waste, fraud, abuse or a danger to others is not 
an easy decision for most people, and life after you have blown 
the whistle is not easy either.
    But the job that whistleblowers do is tremendously 
important and valuable. That is why when courageous men and 
women feel compelled to speak out, we do not want to silence 
them. We want to give them a process that allows them to report 
that information without fear of retaliation.
    Before this hearing began, I took the opportunity to hear 
from Ms. Busche and Dr. Tomasaitis. I also heard from Mr. 
Carpenter, who represents many more whistleblowers through his 
work at Hanford Challenge. They describe an atmosphere in which 
they and other individuals faced severe retaliation for raising 
concerns about Hanford.
    Whether Ms. Busche or Dr. Tomasaitis or any of the other 
individuals that have come forward to this Subcommittee is 
right about the science behind the safety at Hanford is not a 
matter on which I or the people in the room at this hearing 
will be able to reach a final conclusion about.
    But the fact that Ms. Busche and Dr. Tomasaitis were fired, 
despite being known to have raised their concerns, has created 
the appearance of a chilled atmosphere to safety and the belief 
of employees that management suppresses technical dissent. That 
demands attention by Congress, and it certainly demands 
attention by the people who have oversight over this project.
    Today, we will hear from two witnesses from the Department 
of Energy, with responsibility for the safety culture at 
Hanford. We will also hear from Bechtel, the prime contractor 
at the waste treatment plant, and URS, the subcontractor to 
Bechtel, who is the employer of both Ms. Busche and Dr. 
Tomasaitis.
    I thank the witnesses for being here and look forward to 
their testimony.
    And we will begin with Mr. Eckroade and Mr. Moury. I will 
introduce both of you, and you can take your oath.
    And the reason I am a little frantic is that we are going 
to start votes at 11:30, which is really going to mess this up, 
and this is going to prolong the hearing in a way that did not 
seem efficient to me.
    And, since this is a Subcommittee about efficiency and 
effectiveness in government, it is hard for me to accommodate 
what seems to me an antiquated notion that members of the 
government cannot sit at the same table with contractors. That 
flies in the face of the reality that our government is filled 
with contractors working side by side, sometimes 
indistinguishable from each other in terms of their work 
function and what they are doing. The notion that we have to 
have two tables to make sure the government people do not have 
to intermix with the company people seems to be somebody 
holding onto some notion that makes no sense in terms of 
today's government and its operation.
    But I know you two are not responsible for that decision, 
so I will not yell at you. I will save my wrath for the person 
who actually made that decision, which will come at a later 
time.
    Mr. Eckroade is Deputy Chief of Operations, Office of 
Health, Safety and Security at the U.S. Department of Energy. 
Mr. Eckroade previously served as Principal Deputy Chief for 
Mission Support Activities in the Office of Health, Safety and 
Security and Director of the Office of Independent Oversight.
    Matt Moury is Deputy Assistant Secretary for Safety, 
Security and Quality Programs, Environmental Management at the 
U.S. Department of Energy, where he executes operational safety 
and awareness programs and oversees quality assurance programs. 
Mr. Moury previously spent almost 20 years at the Defense 
Nuclear Facilities Safety Board, which we referenced earlier, 
where he led the Board's efforts to ensure the Department of 
Energy's nuclear stockpile and defense nuclear research 
operations met health and safety standards.
    Thank you both for being here. It is the custom of this 
Subcommittee to swear all witnesses, if you would stand.
    Do you swear that the testimony that you are about to give 
before this Subcommittee will be the truth, the whole truth and 
nothing but the truth; so help you, God.
    Mr. Eckroade. I do.
    Mr. Moury. I do.
    Senator McCaskill. Thank you both.
    And we will begin with you, Mr. Eckroade.
    Am I pronouncing your name correctly, I hope?
    Mr. Eckroade. Yes, Madam Chairman, you are.
    Senator McCaskill. Thank you.

 TESTIMONY OF BILL A. ECKROADE,\1\ DEPUTY CHIEF OF OPERATIONS, 
OFFICE OF HEALTH SAFETY AND SECURITY, U.S. DEPARTMENT OF ENERGY

    Mr. Eckroade. Madam Chairman, Ranking Member Johnson and 
Members of the Subcommittee, thank you for the opportunity to 
provide testimony regarding safety culture and related issues 
at the Department of Energy's Hanford site, waste treatment and 
immobilization plant, or WTP.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Eckroade appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    I would like to take a brief moment to describe the unique 
role of the Independent Oversight Program within the Office of 
Health, Safety and Security, which has conducted safety culture 
reviews at Hanford and elsewhere. The mission of this program 
is to provide DOE line management, Congress and other 
stakeholders with an independent evaluation of the 
effectiveness of DOE policy and line management performance in 
safety and security. This mission is accomplished by conducting 
performance-based assessments designed to verify the 
Department's security interests are protected, that the 
Department can effectively respond to emergencies and the 
Department's operations are conducted in a manner that protects 
its employees, the public and the environment.
    Our team has completed two safety culture assessments at 
WTP, one in 2010 and one in 2012. These assessments included 
interviews with employees of the Office of River Protection 
(ORP), and the contractor, Bechtel National, Incorporated 
(BNI), as well as a detailed review of their safety programs, 
processes and procedures. Detailed reports of these assessments 
and their recommendations have been provided to the Committee, 
and I will summarize their findings briefly.
    In the 2010 assessment, we found that most personnel who 
were interviewed expressed that their managers encouraged a 
questioning attitude and that they were comfortable with 
raising safety concerns. However, some individuals believed 
that there was a chilled environment that discouraged reporting 
of safety concerns, and some BNI employees expressed fear about 
retaliation. Our report contained a number of detailed 
recommendations for both ORP and BNI. Among those 
recommendations were that BNI strengthen procedures for the 
resolution of nuclear safety concerns, identify mechanisms to 
strengthen the trust among the workforce and better communicate 
information to employees.
    Two years later, in 2012, we performed a second 
comprehensive assessment to measure the State of the safety 
culture at the WTP. For this assessment, we engaged external 
independent experts with extensive experience in safety culture 
reviews to complement the highly experienced nuclear safety 
expertise of our staff. That helped us more effectively 
diagnose the safety culture and attributes at WTP and learn 
things we did not learn in our 2010 assessment. In 2012, we 
found that most personnel at WTP believed that safety was a 
high priority. However, a significant number of Federal and 
contractor staff expressed reluctance to raise safety or 
quality concerns. Fear of retaliation was identified in some 
BNI groups. Employee willingness to raise safety concerns 
without fear of retaliation is an essential element of a 
healthy safety culture.
    Our conclusion was that significant management attention 
was needed to improve safety culture at WTP. We found that, 
while managers espoused support for a healthy nuclear safety 
culture, they did not have a full appreciation of the current 
culture or the nature and level of effort needed to foster a 
healthy safety culture.
    We are currently conducting a followup assessment of safety 
culture at WTP, our third review. That review will be completed 
this spring and a written report presented to management. We 
look forward to sharing the results of that assessment with the 
Committee when it is complete.
    A strong safety culture starts with strong, ongoing support 
by the most senior leaders of the organization. We want to 
assure the Members of the Subcommittee that this is a very high 
priority for Secretary Moniz and Deputy Secretary Poneman.
    With the permission of the Subcommittee, I would like to 
introduce for the record a copy of a September 20, 2013 
memorandum signed by both the Secretary and Deputy, titled 
``Personnel Commitment to Health and Safety through Leadership, 
Employee Engagement and Organizational Learning.''\1\
---------------------------------------------------------------------------
    \1\ The memorandum referenced by Mr. Eckroade appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    The memorandum provides a visionary leadership and a deep 
personal commitment to building an organization we can all be 
proud to work in. A vibrant and healthy organizational culture 
will help the Department to achieve its national security, 
scientific and environmental missions safely and securely. We 
are committed to helping the Department achieve this goal.
    I would be glad to answer any questions that the Committee 
may have.
    Senator McCaskill. Thank you very much. Mr. Moury.

  TESTIMONY OF MATT MOURY,\2\ DEPUTY ASSISTANT SECRETARY FOR 
     SAFETY, SECURITY AND QUALITY PROGRAMS, ENVIRONMENTAL 
             MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Moury. Well, good morning. Thank you, Chairman 
McCaskill, Ranking Member Johnson and Members of the 
Subcommittee.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Moury appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    I am here today to discuss the Department of Energy's 
efforts to improve workplace safety culture. In the interest of 
time, with your permission, I would like to give a brief 
summary of my testimony and then submit my full testimony for 
the record. Creating and maintaining a robust safety culture, 
including a workplace where all employees feel free to raise 
concerns, is essential to achieving our mission at the Hanford 
site in Washington State and across the DOE complex.
    As you mentioned earlier, in terms of my background, I am 
an engineer by training, and I have 30 years of experience in 
the nuclear field, including almost 20 years at the Defense 
Nuclear Facilities Safety Board. I also began my career as a 
nuclear trained submarine officer and recently retired with the 
Captain in the Navy Reserves.
    I spent much of my career working to ensure adequate 
protection of the health and safety of the workers and the 
public. At DOE, my office executes operational safety and 
awareness programs.
    At DOE, we believe safety culture is best described as an 
organization's values and behaviors that are modeled by its 
leaders, internalized by its members and serves to make the 
safe performance of work the overriding priority to protect the 
workers, public and the environment. Improving safety culture 
across the Department remains a top priority.
    In September of last year, as Mr. Eckroade mentioned, the 
Secretary and Deputy Secretary of Energy reaffirmed their 
commitment to health and safety in a memorandum to all 
employees. The memo recognized that DOE can advance its 
challenging missions only if it provides all employees a safe 
and healthy work environment and fosters a culture in which 
workers at all levels are empowered to raise problems, 
participate in the development of solutions and are engaged 
appropriately in decisions that affect their work.
    In addition, DOE has taken actions to improve safety 
culture at Hanford. Shortly after his confirmation, the 
Secretary of Energy traveled to the site to gain a firsthand 
understanding of the technical issues at the waste treatment 
plant. The Secretary continues to engage DOE senior leadership 
and employees to underscore the importance of a robust safety 
culture.
    In particular, the efforts taken over the last 2 years by 
DOE to improve safety culture at Hanford are extensive and 
varied.
    First, new leadership has been put in place. The new 
leadership has the qualifications, experience and safety values 
to put the waste treatment plant on a sustainable path.
    Second, the Department clarified formal roles and 
responsibilities for management in the waste treatment plant 
project execution plan, which is the DOE document that 
communicates to the contractor project objectives and how they 
will be accomplished. The Department also revised the waste 
treatment plant contract performance evaluation measurement 
plan to better balance the priorities and emphasize quality and 
safety culture elements.
    Third, DOE implemented a safety culture oversight process 
at the waste treatment plant. Senior management meets regularly 
with contractor management to formally review the contractor's 
progress in executing its safety culture improvement action 
plan. Likewise, senior headquarters managers meet with ORP 
managers to discuss their progress and the progress of their 
contractors.
    Fourth, the Department designed training to assist in 
reinforcing a positive safety culture and engaged in an 
extensive effort to provide this training. Beginning in 
December 2011, a team of Federal and contractor subject matter 
experts from across the Department began to design, develop and 
deliver a course on safety culture and provided that training 
to more than 1,800 of our senior Federal and contractor 
leaders.
    Rules and slogans do not drive culture change. Leaders 
drive this change, personally. Leaders must recognize the 
message that their actions will convey to their employees. This 
course was designed to provide the tools necessary for leaders 
to improve our safety culture.
    Finally, the Department is working to strengthen the 
avenues to address issues raised by contractor and Federal 
employees. A comprehensive Issues Management System has been 
established at ORP to ensure that new and previously identified 
issues are addressed and tracked to closure. The Department has 
also strengthened the Hanford Employee Concerns Program, hired 
a new Employee Concerns Manager at Hanford and continues to 
administer its Differing Professional Opinion process, both of 
which provide additional avenues for employees to raise issues.
    Madam Chairman, with respect to claims of whistleblower 
retaliation by contractors, let me be clear. DOE is strongly 
committed to a workplace where all workers, both Federal and 
contractor employees, are free to speak out. They are free to 
voice concerns or lodge complaints without any fear of 
retaliation. Contractors are statutorily and contractually 
bound not to retaliate against employees for protected 
whistleblower conduct.
    While I cannot speak to the specifics of the claims under 
review, DOE was not asked to and did not approve Ms. Busche's 
recent termination. This termination has raised questions about 
the potential of an improper reprisal for having raised health, 
safety or other protected concerns.
    For this reason, the Department has asked the Office of the 
Inspector General (OIG) to review the circumstances surrounding 
the termination of Ms. Busche. The Department will take 
appropriate action based on the outcomes of any IG 
investigation.
    In conclusion, while the Department has undertaken a broad 
array of activities to improve its safety culture, there still 
is work to be done. Safety culture is a continuum, and we 
continue to move along this continuum as we strive to improve.
    We recognize this is an ongoing process, a journey, not a 
destination and one which calls for continuous improvement. A 
safety culture built on these principles requires sustained 
effort by the Department's leadership and senior managers. The 
Department remains fully committed to this effort.
    Madam Chairman, this completes my comments. I would be 
happy to answer your questions at this time.
    Senator McCaskill. Thank you both very much for being here. 
We appreciate it very much.
    I, very rudely, blew right past my colleague's and 
friend's, Senator Johnson's, opening statement. So I am going 
to defer my questions and allow him to go first in the spirit 
of bipartisan cooperation that we try to work on in this 
Committee.
    Senator Johnson. Nothing rude about it. I took no offense. 
I know we are trying to hustle through this. So I appreciate 
you letting me ask some questions.
    Mr. Eckroade and Mr. Moury, both of you are talking about 
studies and processes and all kinds of, no offense, 
bureaucratic gobbledygook.
    What I want to get to is I want to find out what control is 
in place right now. You are the customer. You should be in 
control of this process.
    What should someone like Ms. Busche do? What course of 
action should she be taking, and what kind of protections are 
available to her in the Department of Energy, currently, Mr. 
Moury?
    Mr. Moury. Well, she should be--as I mentioned earlier, the 
Department is fully committed to her being able to raise any 
issue that----
    Senator Johnson. What was the first step she should have 
taken?
    Is there somebody in the Department of Energy, somebody at 
the site, where somebody like Ms. Busche could go to and then 
really be able to speak very freely and kind of establish, hey, 
listen, I am a whistleblower; I need some protection?
    Mr. Moury. Well, I mean there is certainly a series of 
steps she can go through to elevate her concerns, first, 
starting with her line organization, the people that she works 
for.
    If she does not achieve satisfaction through them, I mean, 
clearly, the best position we would be in is if the Department 
took those issues and a contractor took those issues, tracked 
them, worked them to closure and communicated the closure of 
those issues.
    Senator Johnson. OK, but that did not happen.
    So, if you are in a position as a whistleblower----
    Mr. Moury. So, if that did not happen----
    Senator Johnson [continuing]. You end up having to go to 
the customer, the government. What system is in place right now 
to address that type of situation?
    Mr. Moury. Well, there are a number of different programs 
that are available that----
    Senator Johnson. Well, there is a problem right there--a 
number of different programs.
    I mean, is there one specific approach that she should have 
taken?
    Is there somebody in the Department of Energy overseeing 
that contract that she could have gone to, that everybody from 
the contractor base knows that if I have a serious safety 
concern I go to this office right there to get this thing taken 
care of?
    Mr. Moury. Well, the next step would be to go the Employee 
Concerns Program that is out at the waste treatment plant that 
is run by the Richland office. It is a combined Employee 
Concerns Program. We have expended an incredible amount of time 
upgrading that program, as I mentioned earlier in my statement. 
So that would be the next step.
    How she pursues her issues is really up to her. It is up to 
the individual. She can then take it to the headquarters and go 
through the Department of Energy's program, or she can go 
directly to the Department of Labor (DOL), if she feels the 
need to raise her issues through those programs.
    Senator Johnson. Do you know if she availed herself of any 
of those programs?
    Mr. Moury. I am not aware of her availing herself of the 
Hanford Employee Concerns Program. I do know that she has used 
the Department of Labor's program. But other than that, I would 
have to get back to you with more details.
    Mr. Moury. OK. Mr. Eckroade, can you add anything to that?
    Mr. Eckroade. Ms. Busche, in the last couple of years, has 
used the DOE headquarters Employee Concerns Program a number of 
times. I am familiar with a couple of different employee 
concerns that she has sent forward. Most dealt with her 
concerns with actions of her managers that appear to be 
retaliatory in nature.
    She did use the mechanisms that were available to her to 
share her concerns, and I was aware of some of those, as well 
as other managers in the Department of Energy.
    Senator Johnson. Now was she in a unique position in terms 
of safety within the site, where her management, those 
contractors, had to consult with the Department of Energy, the 
customer, prior to her dismissal?
    Mr. Moury. The Department was not consulted nor did we 
approve the termination of Ms. Busche.
    Senator Johnson. But was she in a position where according 
to the contract, according to the rules, that she was supposed 
to--that the Department of Energy should have been notified 
prior to her dismissal?
    Mr. Moury. I am not an attorney. As I mentioned before, I 
am an engineer, not a contracting officer. I am not aware of 
the specifics of what was required prior to URS terminating Ms. 
Busche.
    Senator Johnson. Well, that would be a pretty significant 
control, I would think, from the customer on their contractor--
that if you have key safety positions, that prior to anybody--
if one of those safety officers is raising an issue, prior to 
any termination or any type of action being dealt with that 
employee, the Department of Energy would have to be consulted 
and would have to be brought into that process.
    I mean, does that control exist?
    Mr. Moury. I am not familiar with that specific element of 
the contractor. What I would like to do with your permission is 
to take that question for the record and provide you with an 
answer at a later date.
    Senator Johnson. OK. Mr. Eckroade, do you have--are you 
aware of a particular control in place through the Department 
of Energy, governing these contracts, of employees of the 
contractor having a heightened status and because safety is 
such a huge issue, that the contractor must consult with the 
customer, the Department of Energy, prior to taking any 
employer action against an employee?
    Mr. Eckroade. Just like my colleague, Mr. Moury, I am not a 
lawyer as well, and I am not familiar with any departmental 
policy that would govern the provision that you just mentioned.
    Senator Johnson. OK. Can you point--because, again, we have 
talked about all these studies. You were going to say, 
specifically, this is what we have done. I just did not hear 
any specifics.
    I heard, like I say, studies, processes, formal review 
systems.
    I mean, specifically, what kind of controls are in place to 
afford whistleblower protection, to ensure that people who have 
legitimate safety concerns, where those concerns are adequately 
aired and addressed?
    Mr. Eckroade. I will just talk about my office.
    The one thing that the Department has done is become aware 
of the importance of a healthy safety culture in its 
organizations. A few years ago, had the awakening when Mr. 
Tomasaitis raised his issues and he was removed from his 
position and the Defense Board raised concerns, and that was 
the beginning of our and my office's first review of safety 
culture.
    We have learned about safety culture and how to assess it, 
but the Department growing its competencies in this area as we 
understand the results of safety culture reviews. We brought in 
external experts from the Nuclear Regulatory Commission (NRC), 
who are helping us understand this very different aspect of 
safety, including things such as behavioral sciences that 
really help inform us about how we have to interface and 
communicate with our employees much better.
    Although the Department has not reached maturity in healthy 
safety culture, we are clearly learning the importance of it 
and growing in our abilities to manage it, but we still have a 
lot of problems left to manage.
    Senator Johnson. The Department has been around how many 
years? The Department of Energy--when was it created?
    Mr. Eckroade. If you go back to the Manhattan Project, a 
long time.
    Senator Johnson. And it has been overseeing these nuclear 
waste sites for how many years?
    Mr. Eckroade. Over 50 years.
    Senator Johnson. And so now you are saying that the Office 
of Health Safety and Security, 2 years ago, was just really 
kind of coming into understanding and dealing with safety and 
security issues.
    Mr. Eckroade. Right. The whole Department has really had an 
awakening since the 2010 timeframe. We did not stick our heads 
in the sand. We ventured out to try to learn about this. And we 
are learning, and we are growing, but we are not mature.
    Senator Johnson. I appreciate that you had an awakening 2 
years ago, but what is shocking, literally--I have been in 
business, and trust me, frequently, because of governmental 
actions, things like the Occupational Safety and Health 
Administration (OSHA), businesses have been concerned about 
safety and security for decades. It has been a top priority 
within the private sector.
    It is a little mind-boggling and a little jaw-dropping that 
within the Department of Energy, overseeing an incredibly 
complex--I will give you that--very difficult issue.
    I would not have to grapple with this. It has really been 
the last couple of years that we are kind of pulling our heads 
out of the sand and going, boy, we really ought to take a look 
at the safety and security concerns.
    I mean, I am just saying--just a commentary on that.
    Mr. Eckroade. Just one comment, if I could, sir. The Energy 
Department has a very strong technical safety program. We have 
our own internal regulations that drive a lot of very good 
aspects of the occupational safety and health of our employees, 
and we had that awakening about 20 years ago.
    The issue of safety culture is very different. It is a new 
kind of study of safety.
    Senator Johnson. And what I am saying is in business the 
idea of a safety culture is not new, not by any stretch of the 
imagination. You have to have specific controls so that your 
employees and people that work with you know exactly what they 
need to do to raise safety concerns so they can be addressed 
very quickly. That is what has to happen.
    But thank you, Madam Chairman.
    Senator McCaskill. Thank you.
    Assuming there are 10 minutes left on the vote, I am going 
to go ahead and go.
    Senator Johnson. Do you want me quick do it and come back?
    Senator McCaskill. That would be great.
    Senator Johnson. OK.
    Senator McCaskill. She was a key personnel. She is still 
listed on the contract as key personnel--Ms. Busche. And, as 
key personnel, she could not be fired without DOE approval.
    We know that happened. We know she was fired without DOE 
approval. What is the recourse DOE has against the contractor 
for doing that?
    Mr. Moury. Well, Bechtel provided to the Department a 
letter that said they were going to be changing the key 
personnel list, adding two and removing one. However, having 
said that, at no time was the Department asked or approved the 
dismissal of Ms. Busche.
    And, as I mentioned before, her dismissal did raise some 
concerns about reprisal for the fact that she had been raising 
issues. So that is why the Department has taken the step to 
engage the IG to take a look at the circumstances surrounding 
her removal, and if, in fact, reprisal is found to exist, then 
the Department will take action.
    Senator McCaskill. And what would that be?
    Mr. Moury. I do not know exactly what those actions would 
be. They would be dependent on the results of the review. I can 
get back to you with the very specifics about the actions or 
the steps that they could take.
    Senator McCaskill. Does it surprise you that they, 2 weeks 
after the Secretary, who I am a big fan of, Secretary Moniz--2 
weeks after he signed the memorandum about safety and a culture 
of safety, that they would choose that time to get rid of Dr. 
Tomasaitis and then just a few months later fire Ms. Busche?
    Do those seem to be the actions of a contractor that is 
concerned about a culture that welcomes whistleblowers?
    Mr. Moury. I do not know the specifics of Ms. Busche's 
termination. I believe you will have to ask the next panel to 
get into some of the specifics of why she was fired.
    Senator McCaskill. I am sure that we will not get into the 
specifics because I am sure that they will say it is in 
litigation.
    Mr. Moury. We have certainly made it very clear to our 
contractors that reprisal against whistleblowers or people 
raising issues is totally unacceptable. We have different 
processes available to us if we do find that retaliation has 
occurred.
    Senator McCaskill. That is what I am going to really watch 
carefully----
    Mr. Moury. That also includes award fees.
    Senator McCaskill [continuing]. Because you did the report 
in 2012. Now you are doing another one. You have called the IG. 
Meanwhile, the money keeps flowing, costs keep escalating, 
performance bonuses keep being given.
    At some point in time, the customer here needs to do 
something other than ask for another report because, clearly, 
it does not appear that even the Secretary of Energy issuing a 
memorandum had much of a chilling effect on the company doing 
what they had to know was going to be two high profile 
dismissals. There are no two people at that plant that had a 
larger profile for having the courage to stand up on technical 
safety issues than those two people.
    Would you disagree with that statement, either one of you?
    Mr. Moury. No.
    Senator McCaskill. After the Secretary of Energy, the most 
powerful person in the country in regards to their contract, 
signs a written memorandum basically saying, we cannot have 
this kind of culture, they say, you know what, we are going to 
get rid of the two biggest, highest profile whistleblowers in 
the whole Hanford treatment facility.
    And then let me ask you about the next piece of this.
    Have you all discussed--and this may be for someone other 
than the two of you, but--this notion that contractors can 
litigate on our dime?
    Do you know how much we have forwarded them for legal costs 
at this point surrounding the dismissal of these two people?
    Mr. Moury. I do not have that information with me. We can 
provide that information to you at another time.
    Senator McCaskill. The notion that they defend themselves 
without telling you they were firing her, they sent in 
something that they are going to try to argue, I am sure, means 
they were getting rid of her, but they did not tell you that. 
They just said they were changing key personnel.
    These cases go on for years, millions of dollars in legal 
costs, and at the end of that, if they settle the case without 
admitting any wrongdoing, then the taxpayer stays on the hook, 
correct?
    Mr. Moury. I am sorry, Madam Chairman. Would you repeat 
that last piece?
    Senator McCaskill. At the end of a lengthy litigation----
    Mr. Moury. Correct.
    Senator McCaskill [continuing]. With expensive lawyers 
being paid by the government, if they settle at the end of this 
lengthy--or if they wear down the other side because the other 
side does not have the resources the U.S. Government has--you 
can imagine if you are an individual trying to sue a company 
that is being bankrolled by the U.S. Government.
    I mean, talk about hard.
    So there is a concept in litigation called wearing them 
down. Papering them to death. Overwhelming them with the 
resources of one side versus the other side.
    So let's assume just a hypothetical case, not these 
individuals and a hypothetical case. They wear someone down 5, 
6, 7 years. Finally, the person on the other side is out of 
money. Their lives have been on hold. Their careers have been 
on hold. And many times, they settle because they cannot go on 
anymore.
    And, if they settle and the defendant does not have to 
admit any kind of wrongdoing, then we stay on the hook. We end 
up having to cover all of those costs.
    Should there be something that would incentivize litigants 
that we are funding, that if it goes past a certain time or a 
certain amount of money spent, that they have to have skin in 
the game in this legal fight?
    Mr. Moury. Well, I would say, Madam Chairman, that the 
costs to the contractor is not a done deal. It is up to the 
contracting officer to determine whether the legal costs are 
appropriate in the event that a case is settled. Whether they 
will be fully allowable or partially allowable is up to the 
contracting officer.
    Senator McCaskill. Well, that is good to know because I 
will have some questions for the contracting officer on this 
case.
    What if we had a rule that if you did not inform DOE, your 
customer, that you were firing key personnel that you had to 
absorb all the legal costs of litigation surrounding that 
firing yourself and not ask the government for reimbursement?
    Mr. Moury. I mean, that is an interesting concept. I would 
like to spend some more time thinking about it, and maybe we 
can provide you with some additional details.
    Senator McCaskill. There just seems to be something wrong 
with this.
    Mr. Moury. Our system is also based on the presumption that 
our contractors are not liable based on an assertion by the 
contractor's employees.
    Senator McCaskill. Of course not, and nor would I want 
there to be an assumption.
    I just know that in terms of resourcing litigation this is 
not an even playing field, and the way it is set up does not 
incentivize a quick resolution of the dispute. It incentivizes 
lengthy litigation as opposed to a quick resolution.
    And it seems to me that we could work on doing something in 
that regard that might level the playing field slightly----
    Mr. Moury. Yes.
    Senator McCaskill [continuing]. So that everyone had an 
opportunity to actually have their case adjudicated by an 
impartial jury.
    Mr. Moury. Right. Ma'am, I understand----
    Senator McCaskill. The vast majority of these never get 
there.
    Mr. Moury. Thank you, Madam Chairman.
    I understand your frustration, especially with the length 
of time that some of these issues take to be resolved.
    We do follow the processes that were set up by Congress, 
and we are always looking for ways to improve the Department's 
processes, and the whistleblower is one that we are also 
looking at also.
    Senator McCaskill. We have discussed earlier today the 
Defense Nuclear Facilities Safety Board. I did not realize at 
the time that you had given so many years of service there and 
to your country in the military.
    You are the perfect witness to ask this question of. Why 
couldn't we give DNFSB some kind of jurisdiction as a third 
party oversight on a facility like Hanford?
    Mr. Moury. This is a little bit outside of what we were 
going to talk about today.
    I would say that the Board, in all my tenure there--I have 
been gone for a number of years. But it was really focused on 
the role of the Board to help the Department complete their 
mission, and in that context, their evaluations are based on 
the Department's requirements and evaluating the implementation 
of those specific requirements.
    So to give them a separate, independent role--I think it 
removes what the purpose of the Board was put in place for when 
they were first established back in 1988.
    Senator McCaskill. At the end of the day, this controversy 
boils down to technical concerns, highly technical concerns, by 
two professionals in the field that had been given positions of 
great trust by your contractors.
    Do you feel comfortable, Mr. Moury, that their technical 
concerns have received the airing that they should? And, as 
somebody with your background, you know that they are not alone 
in the field with some of the technical concerns that they 
expressed.
    Mr. Moury. Well, we have asked the contractor to put a 
consolidated list of all the issues that both Dr. Tomasaitis 
and Ms. Busche have voiced. I am well aware of many of those 
issues, and many of those issues were raised by other people 
and are being pursued.
    Once we have that list, we will evaluate them based on the 
technical merit of the issues that they have raised and make a 
determination at that time. But those issues are being worked.
    I mean, many of these issues--since this is a one-of-a-kind 
facility, it is incredibly complex. The technical issues are 
very complex, and they take a long time to resolve.
    So sometimes our failure is in the fact that it takes us--
we have not in the past done a good job of getting the word 
back to the people that are raising these issues on where 
exactly in the process resolution of their issues stands, and 
that is one of the key things that we have been working on.
    And I think it is important to preventing this chilled work 
environment, to make sure that people understand where those 
issues are being addressed and that they are not being ignored.
    Senator McCaskill. Either of you, are you familiar with the 
people that have been tasked with their responsibilities now at 
Hanford?
    Mr. Eckroade. Could you be a little more specific?
    Senator McCaskill. The two jobs that they were removed 
from, two very important jobs, one in the technical capability 
and one in the safety EM capability. They were both high-level 
people at that facility. Who has replaced them; do you know?
    Mr. Eckroade. I am not aware.
    Mr. Moury. I do not know the answer.
    Senator McCaskill. Have you heard anything from either of 
those people about any of the same concerns?
    Mr. Moury. The people that replaced them?
    Senator McCaskill. Correct.
    Mr. Moury. I have not heard anything. I am not sure who is 
replacing those two individuals.
    Senator McCaskill. OK. Would it be a smart thing for the 
Department of Energy to go to their replacements and go through 
that list of concerns and see if they have the same ones, to 
take the impetus yourselves to ask those questions?
    Mr. Moury. Well, I think it would be appropriate certainly 
to work with them and go through this list of issues and to 
determine the validity of those technical issues. I think that 
is fully appropriate.
    Senator McCaskill. If you did that, if you took the impetus 
to do that, that would remove the necessity of them being 
branded as whistleblowers, and it would also give credibility 
to the concerns that were raised in the first place--that you 
were asking about those same concerns.
    In other words, you cannot just replace these two people 
and have the concerns go away.
    Mr. Moury. That is correct.
    In the real world, I mean, I understand the benefit that 
whistleblowers have provided to our country on a number of 
different areas.
    If we were in an ideal world, we would have very few 
whistleblowers because when their issues are raised initially 
at those lower levels we would address them; we would track 
them to closure; we would keep them informed of how we were 
progressing.
    And that whole process is something that we have been 
expending a lot of time trying to strengthen.
    Senator McCaskill. I appreciate very much.
    I have to go vote. If you have more questions, great. If 
not, this is the introduction for the two witnesses that will--
--
    Senator Johnson. You want to hear the testimony, right?
    Senator McCaskill. No, you can go ahead. I have read it.
    Senator Johnson [Presiding.] Well, thank you. I will, I 
guess, dismiss you two.
    Senator McCaskill. If you would not mind staying, in case 
we have questions after the other two witnesses testify, we 
would really appreciate it.
    Mr. Eckroade. Certainly.
    Mr. Moury. Yes, ma'am.
    Senator Johnson. OK. So I will ask the other witnesses to 
come forward then.
    Again, thank you for being willing to appear before our 
Subcommittee.
    Our first witness is James Taylor. He is Senior Vice 
President, Global Management and Operations Services at URS 
Corporation, where he oversees strategic initiatives, business 
development activities and administrative and operations 
support functions. Mr. Taylor leads the business unit 
responsible for URS's work at the waste treatment plant at 
Hanford. Mr. Taylor has 26 years of experience in the nuclear 
industry, including as Director of the Savannah River National 
Lab.
    So, Mr. Taylor, welcome.
    And our second witness is Michael Graham. He is the 
Principal Vice President at Bechtel National, Inc. Mr. Graham 
has worked at four major Department of Energy sites across the 
country and previously led a project to evaluate the impacts of 
Hanford waste on groundwater in the Columbia River.
    So, again, it is the tradition of this Subcommittee to ask 
people to swear in, so if you would stand.
    Do you swear to tell the truth, the whole truth and nothing 
but the truth?
    Mr. Taylor. I do.
    Mr. Graham. I do.
    Senator Johnson. Mr. Taylor, why don't you start your 
testimony?

TESTIMONY OF JAMES N. TAYLOR,\1\ SENIOR VICE PRESIDENT, GLOBAL 
      MANAGEMENT AND OPERATIONS SERVICES, URS CORPORATION

    Mr. Taylor. Good morning, Ranking Member Johnson and 
Members of the Subcommittee. Thank you for the opportunity to 
appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Taylor appears in the Appendix on 
page 40.
---------------------------------------------------------------------------
    My name is James Taylor. I am the General Manager 
responsible for the environmental cleanup work under URS's 
Energy and Construction Division, the role I assumed in January 
of this year. I am grateful to lead a team of nearly 20,000 
dedicated professionals working at 18 major cleanup projects in 
the United States and abroad. My business unit is responsible 
for our work on the waste treatment plant at the Department of 
Energy's Hanford nuclear site in Richland, Washington. I would 
like to provide you a brief introduction to the work we do at 
the waste treatment plant and discuss our companywide 
commitment to safety. I also want to be very clear. URS has 
zero tolerance for retaliation against whistleblowers. This is 
firmly embedded in our company's culture and goes hand in hand 
with our dedication to safety.
    As you are aware, projects at the Hanford site are intended 
to address once-in-a-lifetime environmental challenges, and we 
will eventually build a one-of-a-kind facility. There are 
currently more than 56 million gallons of nuclear waste stored 
in underground tanks at the Hanford site. The waste is a 
byproduct of nine nuclear reactors that operated at Hanford 
from World War II through the Cold War. Some of these tanks 
were constructed as early as the 1940s, and many are well 
beyond their design life.
    When operational, the waste treatment plant will be the 
first chemical waste processing facility in the world with the 
capacity to separate and stabilize nuclear waste. Our role at 
the waste treatment plant is to work with Bechtel, DOE's prime 
contractor at the site, to design, construct and startup this 
treatment facility. We work under the direction of DOE and 
Bechtel. DOE is charged with managing the Hanford site and has 
the ultimate authority over the project from design to 
completion.
    It is imperative that we continue to develop and implement 
the technology needed to process this waste and complete the 
waste treatment plant as soon as safely possible.
    Understanding the unique safety and environmental demands 
of this project, we listen very seriously to feedback from 
congressional leaders, experts in the field, our employees, and 
members of the public, and we are always open to new ideas.
    I know how important it is to get this right from a 
national perspective but also from a local perspective. 
Hundreds of our employees live and work in this community, and 
no one is more committed than we are to the success of the 
waste treatment plant.
    We are proud of the safety record that we have built over 
many years at many facilities in the United States and abroad. 
We know we need to remain ever-vigilant to protect and extend 
that record, which is why our corporation, our corporate 
culture, makes safety our highest priority.
    URS encourages its employees to raise safety concerns, and 
we are methodical in addressing the concerns they identify. We 
work closely with our employees to promote an open atmosphere 
because the complex issues we tackle demand a questioning 
attitude and creative solutions. Critical feedback and dissent 
are vital parts of our process, which is one of the reasons we 
encourage employees to raise concerns and challenge the status 
quo. We address all identified concerns and value these 
important contributions to our safety culture. We also continue 
to improve the safety culture at the waste treatment plant 
through internal and external reviews.
    Ms. Busche joined the waste treatment plant project in 
March 2009. On February 18, 2014, Ms. Busche's employment was 
terminated for cause due to her conduct and behavior. Ms. 
Busche was not retaliated against because she raised safety 
concerns. Given the privacy interests at stake and the pending 
litigation relating to Ms. Busche's employment, I am limited in 
what I am able to say about this matter. I can say with 
confidence, however, that URS counts on our employees working 
at the front lines to remain vigilant about safety. For this 
reason, we have effective policies and procedures in place to 
encourage employees to raise safety concerns and a zero 
tolerance policy against retaliation to protect them when they 
do.
    I am proud of the work we at URS do to address some of our 
country's most difficult environmental challenges. We will 
continue to work with DOE and others to ensure the waste 
treatment plant is designed and constructed safely with the 
best available technology.
    Thank you for the opportunity to participate in this 
hearing, and I am happy to answer your questions.
    Senator Johnson. Thank you, Mr. Taylor. Mr. Graham.

   TESTIMONY OF MICHAEL GRAHAM,\1\ PRINCIPAL VICE PRESIDENT, 
                     BECHTEL NATIONAL, INC.

    Mr. Graham. Senator Johnson, I am Michael Graham, Principal 
Vice President of Bechtel National, Incorporated.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Graham appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    Bechtel designed and engineered the defense waste 
processing facility at the Savannah River site in South 
Carolina. It is the only plant in the Nation that currently 
converts liquid high-level nuclear waste into solid glass, a 
process known as vitrification. This is the same process that 
will be used at WTP.
    The waste treatment plant at Hanford is being designed and 
built to meet a U.S. Government commitment to the State of 
Washington to immobilize the highly radioactive waste stored in 
177 aging underground tanks. These legacy tanks of World War II 
and the Cold War date back to the 40s, and 67 of these tanks 
have been reported to have leaked over a million gallons of 
radioactive waste. The plant will take the radioactive tank 
waste, mix it into glass and package it into robust containers 
for permanent disposal.
    This mission to safely dispose of the radioactive waste 
that has been accumulated over generations is a challenge that 
has been handed to our generation by our parents and our 
grandparents. It is, and will continue to be, difficult, costly 
and time-consuming venture. We owe it to our children and our 
grandchildren to undertake this task and to bring it to 
successful conclusion.
    An essential element of our success in completing 
technically challenging projects like WTP is creating and 
maintaining a strong safety culture that values a questioning 
attitude toward technical and safety issues. Raising and 
resolving technical issues is an integral part of our 
fundamental work process. All personnel are expected to fully 
and collaboratively participate in the identification and 
resolution of issues and concerns.
    In most instances, differences in professional opinions are 
resolved as a routine part of interactions between colleagues 
and management, but if these interactions do not effectively 
address a question, there are multiple avenues for project 
personnel to raise issues and concerns.
    The first is the Project Issues Evaluation Report (PIER) 
process. It is a tool for managing WTP's technical issues and 
opportunities for improvement. Issues raised in the PIER 
process are fully transparent to the Department of Energy. This 
readily available process provides a mechanism for the 
resolution of any and all issues, be they raised by a project 
personnel or an external reviewer.
    The next level is the Employee Concerns Program (ECP), and 
it provides all personnel at WTP with an independent avenue for 
reporting and resolving concerns.
    And yet another level is the Differing Professional 
Opinions (DPO) process. This process is a formal mechanism for 
WTP personnel to resolve questions and concerns about the 
adequacy of the technical design or if there is a legitimate 
disagreement regarding the appropriate technical path. The DPO 
process provides a formal review of the disputed issues by a 
technically qualified and independent panel with oversight by a 
DPO review board.
    So, collectively, these represent a robust, best-in-class 
process for identifying and tracking and resolving issues and 
concerns.
    I can assure you the WTP project will not be completed 
until all open technical questions have been resolved to the 
satisfaction of our team and the Department of Energy. The 
facility will then undergo a rigorous multiyear operational 
readiness review process. Operational testing will use 
surrogate materials to demonstrate that the plant will safely 
operate as designed and will be performed before any hot 
nuclear operations can begin.
    This process took many years to complete when DWPF, the 
plant in South Carolina, was started up in the 90s.
    Finally, you have asked what role our company had in Ms. 
Busche's dismissal. Ms. Busche was an employee of URS, and URS 
alone made the decision related to the termination of Ms. 
Busche. It is my understanding that we were informed by URS 
that they were considering terminating Ms. Busche's employment 
for cause. I also understand that we were informed by URS that 
they intended to proceed with termination, and we received a 
letter from URS, formally notifying us of Ms. Busche's 
departure, which we then forwarded to the Department of Energy.
    We at Bechtel are extremely proud of our work at Hanford. 
It is an honor to serve as the government's lead contractor for 
this vitally important project. We welcome thoughtful criticism 
as a foundational component for our commitment to continuing 
improvement.
    It is important to note that there are many enormous 
successes at the WTP project, and we are committed to reaching 
that day when the plant is operating and safely processing 
nuclear waste to protect the Columbia River and the people of 
the Pacific Northwest.
    Thank you.
    Senator Johnson. Thank you both for your testimony.
    Let me just first ask, were either of you in the room when 
we were talking with Ms. Busche?
    Mr. Taylor. Yes, sir.
    Senator Johnson. Anything from that discussion that you 
want to respond to, Mr. Taylor?
    Mr. Taylor. Yes, I only heard the very end of her 
testimony. I do not have any comments from that.
    Senator Johnson. Mr. Graham.
    Mr. Graham. Was your question, was I here at the earlier 
session roundtable?
    Senator Johnson. Correct.
    Mr. Graham. I was not, sir.
    Senator Johnson. Oh, OK.
    There was, let's say, a description of--I would call it--
regulatory capture or basically that the contractors themselves 
so overwhelm the Department of Energy, in terms of design and 
safety concerns, that it almost renders the Department of 
Energy moot in terms of their safety concerns. Would you agree 
with that assessment?
    Mr. Graham. I would not. I think there is adequate 
oversight by the Department of Energy. I have worked at a 
number of the sites and in partnership with DOE to work on 
these very difficult problems.
    Senator Johnson. Mr. Taylor.
    Mr. Taylor. I agree. I think there is adequate oversight by 
DOE. We certainly focus on our oversight of our projects.
    Senator Johnson. Mr. Graham, it sounded like you were 
informed by URS that Ms. Busche was going to be terminated and 
then you reported that to the Department of Energy. Is that 
correct?
    Mr. Graham. That is my understanding, yes.
    Senator Johnson. Is that your duty under your contract?
    Because I was asking the folks from the Department of 
Energy and they did not seem to be aware of any kind of 
contractual or legal obligation of let's say a protected bunch 
of employees for a contract, dealing with safety, to notify the 
Department of Energy.
    Is it your understanding that there is that contractual 
obligation or legal obligation?
    Mr. Graham. It is my understanding that there is not a 
contractual obligation for us to get DOE's approval if we are 
dismissing an employee for cause.
    Senator Johnson. Regardless of what position that employee 
may be in?
    Mr. Graham. Yes, sir.
    Senator Johnson. OK. Well, that creates a problem for a 
whistleblower if it is a safety issue because a company could 
always then not notify and take the position that you are 
obviously taking in this case, that the termination was for 
cause. Is that a little bit of a problem in the control process 
there?
    Mr. Graham. I think this is a very interesting situation.
    And, again, this was a URS employee, and URS took the 
action. We were informed.
    Senator Johnson. Let me state, as I did in that earlier 
meeting, I do not think this is the place to adjudicate an 
employer-employee dispute. To a certain extent, that is part of 
this issue, but you also have the very legitimate concerns of 
whistleblower protection and raising safety issues that, I 
mean, I would like to think that everybody working on this 
project is highly concerned about.
    So let's go into the types of controls that should be in 
place.
    Mr. Graham, you talked about a number of steps that 
somebody who has a safety issue or concern can go through. At 
what point in those areas--because it sounded like there was 
the PIER and then you had the Employee Concern avenue appeal to 
an independent body. I mean, what independent body?
    Mr. Graham. So, if there is an issue that raises to a 
differing professional opinion, then resources outside the 
project with known expertise in these areas are brought in to 
help resolve the issue.
    Senator Johnson. But who pays for those resources?
    Mr. Graham. My understanding is that is paid for by the 
project as an allowable cost.
    Senator Johnson. So, really, it would be the contractor 
employing or contracting with the subcontractor to provide that 
expertise.
    Mr. Graham. Right.
    Senator Johnson. There would probably be some issues of 
independence there, wouldn't you agree?
    Mr. Graham. Well, I think all of our processes are very 
transparent.
    And so, just as we have done in the commercial nuclear 
industry, that first tier of the opportunity for people to 
raise concerns is a very low-threshold, high-volume process. 
And so it has in there issues like they do not like somebody 
smoking at the work site to, other concerns about safety or 
other things. And those are all tracked to closure, and all 
those will be reviewed before the plant enters into any kind of 
a startup phase.
    Senator Johnson. Reviewed by whom?
    Mr. Graham. So it is reviewed by the Department of Energy--
--
    Senator Johnson. OK.
    Mr. Graham [continuing]. And by our management team.
    Senator Johnson. So somebody who has a real safety concern 
and goes through these processes can be assured that the 
Department of Energy is going to be well aware of somebody 
raising an issue.
    Mr. Graham. Absolutely.
    Senator Johnson. I was certainly concerned about just 
differing professional opinions, and we talked about the 
Fukushima site where apparently the experts back in the design 
phase said we should have built higher tsunami walls to protect 
the diesel generators, the cooling generators.
    I have spoken with some nuclear experts in the past, that 
that instance has resulted in really a different design idea, 
that what we ought to do is just put a big ole tank of water 
over the reactor so it can be filled with any power source. To 
me, that makes a lot of sense.
    Now there is a difference of expert opinion prior to, 
basically, a continuous improvement process where you actually 
have an instance that says, well that would not have worked 
either; this works better.
    Describe the resolution in differing professional expert 
opinions which can be pretty strongly held? How do you resolve 
those things?
    Who in the end is the arbiter? Who makes the decision on 
what could be some very strongly held differences of expert 
opinion?
    Mr. Graham. Well, I think, at the end of the day, we are 
the project manager, and we would take our recommendations 
forward to the Department of Energy, and we would gather input 
from the best and brightest.
    As we talked about, this is an incredibly complex plant. 
And so I think just to put it into perspective, the footprint 
of WTP is over 60 acres, and the Pentagon sits on about 41 
acres. So it is huge.
    Senator Johnson. But in the end, it would be the Department 
of Energy. If you have a pretty close call, a technical issue--
--
    Mr. Graham. Right.
    Senator Johnson [continuing]. If there is a difference 
opinion and a decision has to be made, is that the contractor 
that makes the decision on that, or is it the Department of 
Energy that in the end is the customer and makes the final 
call?
    Mr. Graham. It would be our recommendation with DOE's 
approval.
    Senator Johnson. So you would make a recommendation, but 
DOE in the end has control of the process. They will decide 
between the alternatives based on the information you are 
providing them.
    Mr. Graham. And with a lot of input from the external 
Defense Board and others.
    Senator Johnson. Again, I understand the constraint here, 
which is the reason this is not a very good place to adjudicate 
the employer-employee issue here. But, within that constraint, 
can you describe to me; what is the area of disagreement 
between the two whistleblowers that we talked to earlier and 
Bechtel or URS and the Department of Energy in terms of the 
safety issues? Can you at least describe that?
    Mr. Graham. I am obviously not steeped in all the details 
of that plant and these issues, but I can give you a landscape 
picture.
    The issues, as I understand it, that have been raised by 
these individuals are, as was stated earlier, issues that other 
people have also raised. I can assure you that each of these 
issues is being formally tracked and will be tracked to closure 
in those systems that I described.
    Senator Johnson. Mr. Taylor, do you have anything to add 
there? Can you get a little more specific in terms of what is 
the issue at hand?
    I mean, we heard some pretty scary things about hydrogen 
explosions and some relatively scary issues being raised here.
    Mr. Taylor. Senator, I, unfortunately, cannot get into more 
detail. I just took over the position as General Manager 
approximately 8 weeks ago.
    I have asked my Executive Vice President to go investigate 
the concerns that were raised, the nuclear safety concerns at 
the site. He has investigated those. What I am told is that all 
of the issues that have been raised are being tracked and 
corrective actions put in place and that it is a work in 
progress.
    Senator Johnson. And when you say tracked, this is going to 
be going through a process that is very transparent, and the 
Department of Energy is well aware of these things, correct or 
incorrect?
    I mean, is this just being tracked internally within the 
contractor and subcontractor base, or is the Department of 
Energy fully engaged, fully looking over your shoulders in 
terms of what issues are being discussed, what concerns are 
being raised?
    Mr. Taylor. I have not been engaged at that level of detail 
to know the details of the list, but I have been told that they 
are being tracked.
    Senator Johnson. But, again, when you say tracked, that 
means full transparency and the Department of Energy being 
involved in these.
    Mr. Taylor. That is correct. That is my understanding.
    Senator Johnson. Mr. Graham, do you have anything to add to 
that?
    Mr. Graham. No, that is correct.
    Senator Johnson. Mr. Graham, you were talking about--I 
think it was you.
    No, actually, Mr. Taylor, you were also Director of the 
Savannah River National Lab.
    One of the questions I had during the earlier session was, 
is there--it sounds like those cleanup sites are progressing. 
The plants have been constructed. We are actually solving the 
problem there.
    Is there something dramatically different at the Hanford 
site versus other sites that are currently operating?
    Mr. Graham. I can provide a little background on that. The 
Hanford site used five different processes to separate the 
plutonium through the years. The Savannah River site had one. 
And so the complexity of the 56 million gallons of waste that 
is sitting in these failing tanks is much more complicated than 
it is at Savannah River.
    And so even though the fundamental aspect of making glass 
is well understood and is operating well within Savannah River, 
these different processes in the early days of the Manhattan 
Project makes this a much more challenging project.
    Senator Johnson. Would either of you be willing to, or care 
to, comment on your own evaluation in terms of the expertise 
that resides within the government agencies that are involved 
with you?
    Does the government have enough resources?
    Do they have manpower?
    Do they have the requisite skills of the people in the 
position to, with transparency, with tracking process, really 
understand what the issues and be in the position that when you 
make a recommendation on different ideas in terms of how to 
handle these problems, that in the end the Department of Energy 
is well enough versed and has the expertise to make the 
intelligent decision there?
    I realize that might be kind of a difficult question to 
ask, but----
    Mr. Graham. No, actually, I think absolutely.
    I personally know Kevin Smith who is the head of DOE's 
operation at Hanford for the Office of River Protection. I had 
the honor of working with him when I was at Los Alamos, 
managing the cleanup of that site.
    I have had a lot of experience with the Department of 
Energy Environmental Management over the years, and they have a 
depth and breadth of expertise that I know that the Japanese, 
when they had their issues with Fukushima, turned to the 
Department of Energy here for support.
    Senator Johnson. Mr. Taylor.
    Mr. Taylor. I think the Department of Energy has 
significant resources, No. 1. They are well trained and 
qualified.
    Many of the DOE folks have worked in the commercial world. 
So they have worked for contractors like Bechtel and URS.
    So I would agree that they have the expertise to work with 
the contractors and provide good oversight.
    Senator Johnson. Again, you are probably not the best 
people to ask this question. But, can you think of anything in 
the Department of Energy or any of the government agencies 
overseeing your work, any controls that are in place that 
simply do not work or that are just burdensome, that could be 
replaced by better controls that would provide better 
transparency and certainly address and protect whistleblowers?
    Mr. Graham. I do not have anything that comes to mind at 
this point.
    Senator Johnson. One of my concerns is the disparity of 
just who pays legal fees. As it was described in the earlier 
meeting, the legal fees to mount a defense for the contractors 
is really reimbursed by the government. The whistleblowers 
themselves, apparently--I would imagine it is because they were 
terminated with cause--have no one in terms of paying for legal 
fees, which ends up really putting them at huge disadvantage.
    Do you agree with that fact, that it puts them at a 
disadvantage?
    Is there a better process for whistleblower protection 
potentially right within the Department of Energy?
    Mr. Graham. I think we would be happy to engage in those 
discussions, but I did not come prepared to talk about that 
aspect of this situation.
    Senator Johnson. OK. Mr. Taylor.
    Mr. Taylor. I do not have anything to add.
    We could provide our technical experts inside our company 
to support you on that.
    Senator Johnson. I think that is really what we have to--I 
think this Committee really has to be taking a look at that and 
how can we offer the appropriate whistleblower protection and 
how can we ensure safety.
    To me, the government is the customer, and they ought to be 
in charge. That is certainly the way it was in my business.
    I mean, we had pretty well--when our customers said jump, 
we jumped, and we did what they required.
    So we surely want to look--but, again, I want to design 
these things to facilitate safety, as cooperative a process as 
possible.
    I would like to just turn to, from my standpoint, a little 
bit of a conundrum certainly that I would be concerned about--
trying to find any company willing to work on this project. 
This is a once-in-a-lifetime problem. It is a very difficult 
problem.
    How many companies in the world could be viewed as viable 
contractors to do something like this?
    I mean, what is the universe, the known universe, of 
potential suppliers here?
    Mr. Taylor. I think if you look at the companies that have 
the expertise, the capabilities and experience to do this work, 
there are only a handful.
    I think that URS, from an operations standpoint and startup 
and test of significant facilities like this, we are one of the 
leaders.
    I think Bechtel in the same sense; when it is doing the 
engineering, procurement, construction, they are known to be 
the best in the world.
    And, if you look outside that, there are other companies 
that operate similar facilities. For example, in France, there 
is Areva. And I know there are other companies outside, in 
Japan and other countries, that also have that capability.
    But, in the United States, it is a very small group, and I 
would say that URS and Bechtel are the leaders in this 
business.
    Senator Johnson. Do you know of any companies that might 
have the capability that just refuse to do it, or started 
working on a project like this and just walked away out of 
sheer frustration and mounting losses? Did that ever happen?
    Mr. Taylor. I am not aware of that happening.
    Mr. Graham. I am not aware.
    I would just say that, we are--and I will not speak for 
URS, but I think we are fully committed to this really critical 
and difficult mission, and we have thick skins, and we are 
going to stick it out.
    Senator Johnson. This is kind of harkening back to the 
hearing we had back in June, but just refresh my memory. Talk 
about how these contracts are tailored. What is the review 
process? How often are they renegotiated? What are the cost 
escalator provisions?
    Can you just really kind of describe in detail how this all 
comes about and how it is managed on an ongoing basis?
    Mr. Graham. Well, yes, and I was here in June when we 
discussed this.
    The original contract for waste treatment plant was for to 
fast-track a pilot plant to get on with the waste. That scope 
was expanded, and it now includes the future larger plant that 
was going to be a phase two. So it was to do it all at once.
    That change was managed through a very formal change 
management program for contract management within DOE. And so 
all changes in scope, all issues associated with managing 
through these complex things are handled through formal change 
control with approval of the contracting officer for the 
Department of Energy.
    Senator Johnson. Are those all cost-plus contracts?
    How do you----
    Mr. Graham. This particular contract is cost-plus.
    Senator Johnson. What is the plus?
    I mean, what do you expect above your costs?
    What do you--and, again, your costs are fully loaded? I 
mean, is that a full costing system then plus a profit?
    Mr. Graham. Incentive fees or--right. But the cost is our 
cost of our materials and people.
    Senator Johnson. So, in terms of your contract so far, how 
much have you been paid by the government?
    Mr. Graham. I would be glad to provide for the record 
later. I am not prepared to answer that today.
    Senator Johnson. I would appreciate that information.
    And do you have any sense for just your percent 
profitability?
    Mr. Graham. I do not.
    Senator Johnson. What is the plus of the cost-plus? Do you 
know what that percentage is that is called out in the 
contracts?
    Mr. Graham. I do not.
    Senator Johnson. OK. Well, again, I would certainly 
appreciate that for the record.
    Mr. Graham. You bet.
    Senator Johnson. With that, Madam Chairman, I will turn it 
back over to you. Thank you.
    Senator McCaskill [Presiding.] Thank you very much. Thank 
you for helping us accommodate, and thank you all for helping 
us accommodate, an aggressive schedule of voting at the same 
time that we are trying to have hearings with people who have 
disrupted their schedules to accommodate ours.
    So it is the chaos of the scheduling of the Senate, and I 
apologize for it.
    Let me first make sure I understand both of your positions, 
especially URS.
    Mr. Taylor, about notification of DOE about removing two 
folks--both of you should answer this.
    About what you feel like your legal obligation is in terms 
of notifying your customer over firings of two people who had a 
very high profile in terms of discussing technical concerns 
relating to safety, do you feel that either of you had an 
obligation to tell DOE that you were letting these folks go?
    Mr. Taylor. I will speak to Ms. Busche. Out of courtesy, we 
routinely notify our customers if we have significant issues--
for example, in regards to Ms. Busche, we did have some 
individual raise concerns about her conduct and behavior, and 
they were severe.
    And, basically, I needed to notify DOE to let them know 
because Donna is a key person, because these are severe claims 
against her. I needed to let them know, especially given that 
she is a whistleblower.
    Absolutely, we do not support action or retaliation against 
whistleblowers. So we just needed to let DOE know. So we felt 
that because of that there was an obligation.
    From a personnel issue, when you are terminating an 
employee for cause, my understanding--and I am not an attorney 
or an expert on the matter, but notifying DOE is not formally 
required.
    Senator McCaskill. So it is not formally required.
    Are you saying that you did it?
    Mr. Taylor. I am saying that I notified my counterpart in 
DOE that we have significant issues associated with an 
employee, Ms. Busche, about her conduct and behavior, and that 
they were severe, and it was just a notification.
    They were not notified that we had actually done the 
investigation, that we confirmed the findings, and then we 
moved to terminate her. They did not know that we had 
terminated her until after the fact.
    Senator McCaskill. OK. And it is your belief that that is 
not legally required?
    Mr. Taylor. That is my belief.
    Senator McCaskill. And let's assume it may not be legally 
required. But, do you think it might be a good idea to tell 
them that you were firing her under all those circumstances 
that you just delineated, just from a management perspective?
    What would be the reason you would not want to tell them?
    Mr. Taylor. Well, from a human resources standpoint--I have 
experts that basically inform me that these are private issues 
with employees.
    Senator McCaskill. Wait. You just said you already told 
them you had severe issues with her conduct. You did that. You 
were not worried about her privacy then--that you had serious 
ongoing conduct issues. So you did not hesitate to already 
poison the well, so to speak.
    But you did not think that somehow telling that you had 
fired her was somehow a kinder thing to her since you had 
already done that?
    I mean, that does not make sense to me. Why would you go to 
them in the first place and tell them you had problems with 
her, unless you were papering the file?
    Mr. Taylor. It was out of courtesy to our primary customer 
to notify them that we had these allegations and we are 
investigating.
    Senator McCaskill. But you did not think it was a courtesy 
to let them know that you fired her.
    Mr. Taylor. Following the termination, we did call--I 
called my counterpart and informed them about the conditions 
around her termination at a very high level.
    Senator McCaskill. OK. Let's talk a little bit about the 
nondisclosure form. I have had a chance to--my staff has had a 
chance, I should accurately say, to look at the nondisclosure 
form.
    It is my understanding that there is nothing in the 
nondisclosure form that delineates the ongoing superior rights 
of an employee to report safety concerns to either an IG or to 
Congress, that is not included in your disclosure report. Is 
that correct? [No response.]
    Your nondisclosure agreement that someone has to sign when 
they come to work for you.
    Mr. Taylor. I am not an attorney or an expert on the legal 
issues around a nondisclosure form. So I really cannot address 
that.
    It is not my understanding that that is a document that 
gets in the way of any employee raising concerns. We have to 
have an open environment. Folks have to have the opportunity to 
raise safety concerns. We cannot startup these complicated 
high-risk nuclear facilities if there is any risk of safety to 
our employees, the environment, and the public.
    So it is my understanding that that does not prevent 
employees from coming forward.
    Senator McCaskill. Do you acknowledge, either one of you, 
that you have an issue with the culture there, that people do 
not believe they can come forward?
    Do you see that as a problem that you need to manage?
    Mr. Graham. We obviously, take this very seriously. We will 
continue to encourage people to bring any issues that they have 
forward.
    As I said in my oral testimony, we have several mechanisms 
for people to do that. If they want to remain anonymous, they 
can.
    And all of those issues are openly tracked. DOE has access 
to that information. And we make sure that we track those and 
appropriately close those issues.
    Senator McCaskill. Do you believe the issues that were 
raised by the two people that were terminated have been 
adequately tracked and taken care of?
    Mr. Graham. I can assure that all of the issues that they 
raised or were--as was pointed out earlier--raised by others, 
are being formally tracked to closure within our system.
    Senator McCaskill. OK. So, if we have a list of those, you 
could give us that information for the Committee record?
    Mr. Graham. Yes, Madam Chairwoman.
    Senator McCaskill. So are there any technical issues that 
either of these people raised that you thought did not--that 
were off the wall or irrational or reflected something other 
than a sincere desire to point out technical problems that they 
foresaw could arise, or safety problems that could arise?
    Mr. Graham. Well, I just would say that, in our process, we 
go through and make sure that each of those is vetted by 
appropriate individuals.
    And I am not in a position to prejudge how those matters 
will be resolved. That would not be appropriate.
    Senator McCaskill. OK. Have any of them been resolved that 
they--because some of these go back years, especially Dr. 
Tomasaitis.
    Mr. Graham. I do not have those details, but I would be 
glad to provide the status of all the issues.
    Senator McCaskill. I think some of them were raised as 
early as 10 years ago. I would hope they have been tracked and 
resolved.
    Mr. Graham. I am just not prepared to give you the details 
today.
    Senator McCaskill. OK.
    Mr. Graham. But I will be glad to----
    Senator McCaskill. If you would get those details for us, 
we would like to see how those concerns have been tracked and 
resolved.
    Mr. Graham. OK. Absolutely.
    Senator McCaskill. Let's talk about legal fees. How much 
have you guys spent defending yourself on these lawsuits; do 
you know?
    Mr. Taylor. I have no firsthand knowledge of what the legal 
fees have been.
    Senator McCaskill. Do you know, Mr. Graham?
    Mr. Graham. I am sorry. I do not.
    Senator McCaskill. Is there somebody at your company that 
would know?
    Mr. Graham. Yes, obviously, we will be glad to provide 
that.
    Senator McCaskill. Do you have any idea what the hourly 
rate is that you are being charged for representation?
    Mr. Graham. I have no idea at this time.
    Senator McCaskill. We would like that, too.
    It is my understanding all that is government money that is 
paying for that.
    Mr. Graham. OK.
    Senator McCaskill. Right? Do you know that?
    Mr. Graham. I do not know.
    Senator McCaskill. OK.
    Mr. Graham. I know there are some splits in what is covered 
and what is not. I am just not an expert on that. I am sorry.
    Senator McCaskill. OK. Well, we will have a series of 
questions about that because there is a real uneven playing 
field as it relates to having a case adjudicated of this 
nature.
    I do not know who is right and who is wrong, honestly. It 
is not my place. That is a court of law.
    But I know how expensive it can be to get to a court of 
law, especially if one side has a lot of resources and the 
other side has zip. It puts the side with the superior 
resources in a commanding position, and you can see how that 
could be offensive if, in fact, those commanding resources are 
coming from the U.S. Government.
    I mean, it is one thing to fight your employer when you 
feel like that you have been treated badly. It is a whole other 
thing when they are being bankrolled by the U.S. Government. 
And that is why I think we have to look at this issue--because 
as long as you guys do not admit guilt it is my understanding 
that the Federal Government picks up the tab.
    So, hypothetically, not that you are doing that in this 
case or not that you would do this, but hypothetically, a 
contractor could draw out a case as long as possible, weaken 
the plaintiff significantly, financially and over time, and 
then get a settlement and never have to pay a dime of their own 
money for their legal defense, whereas, the other side, who 
wanted an adjudication, is denied that opportunity just by 
being worn down.
    And that is what I would like to get at, and so we are 
going to ask a lot of questions around that in terms of timing, 
how long these cases take, has anyone availed themselves of 
arbitration, are they willing to or, more importantly, is it 
maybe an issue where at a certain point in time, if you go so 
long and spend so much, that it begins to be the company's dime 
rather than the United States Government's dime.
    I do not want to chill people wanting to do business with 
the Federal Government by them thinking that they are going to 
be subjected to costly litigation. On the other hand, this does 
not seem fair to me--the way this is currently situated.
    I did not have a chance to hear your testimony live. I 
wanted to give both of you an opportunity if there were points 
you made in your testimony that you want to make sure that I 
hear.
    I try very hard to read everything, both before and after 
hearings, but I want to confess that there are times that I do 
not get a chance to read everything. So I did not want to 
dismiss either one of you without you having a chance to point 
out anything to me that you think I need to know.
    Mr. Taylor. Chairman, I would just like to state, and I 
stated it in my opening remarks, that URS has a zero tolerance 
for retaliation against whistleblowers. We did not terminate 
Ms. Busche as retaliation for the nuclear safety issues she 
brought up.
    We are very concerned about any issues that are raised at 
our sites because of the consequences that exist at these high-
hazard nuclear operations. So we want to make sure we have an 
open environment at our sites for people to raise concerns so 
that they can be addressed appropriately.
    It is unfortunate, and it was one of the toughest decisions 
I have made in my career. I took over as a General Manager 
eight weeks ago. It was brought to my attention through our 
Employee Concerns Program that we had employees that filed 
complaints against Ms. Busche's conduct and behavior. We 
investigated those. We validated those concerns. And I had to 
make the really hard decision to terminate Ms. Busche.
    Senator McCaskill. You go ahead, Mr. Graham, if you had 
anything that you wanted to bring to my attention.
    Mr. Graham. I think the only thing I wanted to put into 
perspective is that the real risk is in doing nothing and that 
we have 56 million gallons of high-level waste sitting in 
failing tanks and that this is a very long and complex mission 
that we are fully dedicated.
    And we will not be successful if we do not have this open 
process for people to raise their issues and concerns. We do 
that in government work. We do that in the private sector.
    And so we are fully committed to completing the mission, 
starting up the plant safely. It will go through a very 
rigorous startup process that will take multiple years.
    And so a lot of the issues that are raised of what if when 
the plant is operating--we will get there, and I look forward 
to the day when we are--when the plant is operational and we 
are protecting the people of the Northwest and the Columbia 
River.
    Senator McCaskill. We are captured by the severity of the 
situation and the technical expertise that is required, but I 
want to make sure that in our effort to address that that we 
are not taking shortcuts----
    Mr. Taylor. Absolutely.
    Senator McCaskill [continuing]. That we will look back and 
regret.
    And I think, as we talked about in the previous hearing, 
the design-build concept for something like this is literally 
like trying to build an airplane in the air.
    The delays that have occurred and the budget increases that 
have occurred, but looking back, it might have been better to 
design first, and probably now that we know how long this is 
going to take, it may have actually saved time in the long run.
    Let me ask a little bit about Dr. Tomasaitis. In 2010, he 
came to the managers of Bechtel and URS with a list of about 50 
serious technical concerns at WTP.
    And shortly after he raised those concerns, the Bechtel 
manager, Frank Russo, wrote Bechtel and URS officials and said, 
``We need to kill this BS now. Walt is killing us. Get him in 
your corporate office today.''
    And then he was ultimately reassigned.
    Now were there issues with Dr. Tomasaitis that you allege 
were true, that he was difficult to work with and a behavioral 
and so forth?
    Those are the allegations you are making against Donna 
Busche. You understand that this looks very bad in terms of a 
culture that encourages people to come forward with technical 
concerns.
    Do you have any response to someone calling this, talking 
about him killing us and this BS after he has raised these 
concerns?
    Mr. Taylor. Chairman, I am new to the job. I do not know if 
you caught that part of the message. I have been on this job 
about 8 weeks. Before that, I was in charge of business 
development.
    I have no firsthand knowledge of Dr. Tomasaitis and the 
actions that were taken at that point in time. So I can get 
back with you and provide additional information, working with 
my team that was around at that time.
    Senator McCaskill. Well, I think that is important, and I 
think that we need to know your perspective on that because the 
essence of this hearing is I understand what your words are, 
but we have outside agencies, time and time again, citing 
problems with the culture at that facility in terms of people 
feeling like they can come forward with concerns.
    And the way these two cases have been handled--the courts 
will decide. I hope the courts get a chance to decide. I hope 
that this is not one of those that they get worn down and 
everybody agrees to settlements that nobody ever gets to know 
about. But that is not my say. That is the litigants' decision 
as to what happens.
    But you guys have a serious problem in terms of 
whistleblower culture out there, and we are going to have to do 
something to make sure that people understand that they are not 
going to be moved to the basement; they are not going to be 
laid off; they are not going to be fired for raising legitimate 
concerns.
    And we will look forward to your additional information 
that you will give us, and we will have some more questions for 
the record.
    Unfortunately, the bell is calling me again to go vote. So 
we will conclude the hearing at this point, but we will have 
followup questions for both you and for the DOE, and then we 
will share the Committee record with all those that are 
interested.
    Thank you very much for being here today.
    Mr. Taylor. Thank you, Madam Chairman.
    Mr. Graham. Thank you.
    [Whereupon, at 12:44 p.m., the Subcommittee was adjourned.]


















                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
